        American Recovery and Reinvestment Act:
Fewer Security Improvements than Anticipated Will be Made
        and Majority of Projects Are Not Complete


             Audit Report No. 914-2010

                   June 16, 2011




     NATIONAL RAILROAD PASSENGER CORPORATION
           OFFICE OF INSPECTOR GENERAL
                  10 G STREET, N.E.
               WASHINGTON, D.C. 20002
      NATIONAL RAILROAD
      PASSENGER CORPOARATION
                                             Office of Inspector General



Memorandum
To:            John O’Connor, Vice President and Chief of Police



From:          David R. Warren
               Assistant Inspector General, Audits

Date:          June 16, 2011

Subject:       Fewer Security Improvements than Anticipated Will Be Made and Majority
               of Projects Are Not Complete [Report 914-2010]



Enclosed is our report entitled Fewer Security Improvements than Anticipated Will Be Made and
Majority of Projects Are Not Complete (Report No. 914-2010). The objective of this audit was to
review American Recovery and Reinvestment funded police and security projects to determine
the extent to which planned security improvements were achieved.

Your response to our draft report can be found in Appendix I.

Thank you for your cooperation during the course of this audit. If you have any questions,
please contact Michael Kennedy, Senior Director, at 202-906-4308
(michael.kennedy@amtrakoig.gov), or me at (202) 906-4372 (david.warren@amtrakoig.gov).


cc:     DJ Stadtler, Chief Financial Officer
        John Tewey, Deputy Chief, Corporate Security
        Jessica Scritchfield, Principal Audit/Internal Controls Officer

Attachment
                                            Amtrak Office of Inspector General
                                   Fewer Security Improvements than Anticipated Will Be
                                     Made and Majority of Projects Are Not Complete
                                            Report No. 914-2010, June 16, 2011



Summary of Report 914-2010                         June 16, 2011

Why OIG Performed This Audit                       Fewer Security Improvements than Anticipated Will Be Made
                                                   and Majority of Projects Are Not Complete
The American Recovery and Reinvestment
Act of 2009 (ARRA) authorized the Federal          What OIG Found
Railroad Administration (FRA) to provide
$1.3 billion to Amtrak through a grant             ARRA funding enabled the Amtrak Police Department to make some security
agreement. This agreement allocated about          improvements, but the improvements will be fewer than originally planned and
$850 million for capital projects (the repair,     budgeted. Between April 2009 and November 2010, ARRA funding for police and
rehabilitation, or upgrade of railroad assets or   security projects was cut by more than half, from $196 million to $95 million. This
infrastructure), and about $450 million for        decrease caused 33 projects to be canceled, and the budget and scope of work for 16
capital security projects, including life safety   additional projects was reduced (see table below). Funding was reduced primarily
improvements. FRA retained about $4.2              because the grant language drove project selection toward those that could be
million for program oversight and we were          completed by the February 17, 2011, deadline, and in some cases bids were
allocated $5 million for that purpose. The         significantly higher than budgeted amounts. Amtrak spent about $1.7 million on
grant agreement required all projects to be        canceled APD projects. To the extent that these projects are not funded in the future,
completed by February 17, 2011 (as was the         these funds are at risk of being wasted.
case with all Amtrak ARRA projects), and
originally required Amtrak to take                 Changes to ARRA Police and Security Funding (dollars in millions)
“extraordinary measures” before requesting a                                          Number of
waiver to extend project completion beyond         Category                              projects          Funding
the deadline.                                      Original scope—April 2009                   67                    $196.1
                                                   Projects canceled                           33      ($49.1
The Amtrak Police Department (APD)                 Projects with reduced budgets               16       (82.2)
received funds under the capital security          Projects with increased budgets             17         30.3
portion of the grant agreement to improve          Project with no change in budget             1
security at stations, around bridges and           Final scope                                 34                     $95.1
tunnels, and for some nationwide security          Source: OIG analysis of Amtrak Police Department and Finance Department data
projects. The APD ARRA budget is $95.1
                                                   According to APD, just under one third of the 34 projects were complete and just
million.
                                                   over half of the $95.1 million funding for police and security projects was spent as
                                                   of February 28, 2011 (see table below). Based on our May 2010 recommendation,
Our objective was to review ARRA-funded
police and security projects to determine the      the grant agreement was amended in August 2010 to eliminate the “extraordinary
extent to which planned security                   measures” requirement before requesting a waiver to extend a project completion
improvements were achieved. This is one in         beyond the grant deadline. Between December 2010 and February 2011, the APD
series of reports we plan to issue on Amtrak’s     requested and received a waiver from FRA to extend the deadline from 2 to 6
use of Recovery Act funds.                         months for 21 projects (see below); as a result, $41.5 million was put to better use
                                                   because Amtrak did not have to take actions that could increase the risk of waste
                                                   and efficiency. Completion dates were extended primarily because of delays in
What OIG Recommends
                                                   awarding contracts due to higher than anticipated bids and other issues that arose
To avoid wasting $1.7 million spent on             during construction. For example, a project to provide security improvements
canceled projects, we recommend that the           around the Bear maintenance facility in Delaware was delayed 4 months because it
Vice President/ Chief of Police give canceled      took longer than expected to issue the solicitation and award a contract, along with
ARRA projects priority when making future          labor problems that arose during construction.
security improvement project selection             Reported Status of Police and Security Projects as of February 28, 2011
decisions.                                         (dollars in millions)

In commenting on a draft of this report, the                                                Number of
Vice President and Chief of Police agreed          Category                                   projects     Funding      Expenditures
with our recommendation and indicated that         Projects completed                               13       $21.6             $18.1
initial steps have been taken to utilize the       Waiver to extend completion                      21        73.5              32.0
designs from some canceled security projects.      Total                                            34       $95.1             $50.1
                                                                   1
                                                   Source: OIG analysis of Amtrak Police Department and Finance Department data
                             Amtrak Office of Inspector General
                    Fewer Security Improvements than Anticipated Will Be
                      Made and Majority of Projects Are Not Complete
                             Report No. 914-2010, June 16, 2011




                              TABLE OF CONTENTS



INTRODUCTION                                                                3

        Background                                                          3

        Objective                                                           5

FINDING AND RECOMMENDATION                                                  6

        Fewer Security Improvements than Planned                            6

        Conclusions                                                        12

        Recommendation                                                     12


MANAGEMENT COMMENTS AND OIG ANALYSIS                                       13

Appendixes

  I      Comments from Amtrak’s Vice President and Chief of Police         14

  II     Scope and Methodology                                             16

  III    ARRA-Funded Police and Security Projects                          17

  IV     Abbreviations                                                     19

  V      OIG Team Members                                                  20




                                             2
                             Amtrak Office of Inspector General
                    Fewer Security Improvements than Anticipated Will Be
                      Made and Majority of Projects Are Not Complete
                             Report No. 914-2010, June 16, 2011




INTRODUCTION

On February 17, 2009, the President signed the American Recovery and Reinvestment
Act of 2009 (ARRA) to preserve and create jobs and promote economic recovery, and to
invest in transportation and other infrastructure to provide long-term benefits. The
Recovery Act authorized the Federal Railroad Administration (FRA) to provide $1.3
billion to Amtrak through a grant agreement. The grant agreement allocated $850
million for capital projects for the repair, rehabilitation, or upgrade of railroad assets or
infrastructure, and $450 million for capital security projects, including life safety
improvements.1 Under the grant agreement, all projects were to be completed by
February 17, 2011. The grant agreement also required Amtrak to take “extraordinary
measures” before requesting a waiver to extend a project’s completion date. In May
2010, we reported that this requirement may have the unintended consequence of
encouraging Amtrak to take actions that increase the risk of waste and inefficiency.2 We
recommended that Amtrak request the FRA amend the agreement to allow Amtrak to
apply for a grant waiver in instances in which reasonable measures had failed to ensure
that a project would be completed by the grant deadline. Amtrak management agreed
with our recommendation and in August 2010, the FRA amended the grant agreement
waiver provision to eliminate the extraordinary measures requirement.


Background

In April 2005, Amtrak entered into an agreement with the Department of Homeland
Security to use Transportation Security Grant Program (TSGP) funds to perform an
assessment of Amtrak facilities and critical assets. The assessment was performed by
the Science Applications International Corporation in three phases from 2005 through
2008. It identified assets that would represent the greatest challenge to Amtrak if
successfully interdicted, damaged, or destroyed. The assessment coincided with
Amtrak’s Office of Strategic Security and Special Operations3 development of a security
strategy that focused on securing and hardening facilities and identifying other



1 FRA retained approximately $4.2 million for program oversight, and the Office of Inspector General was
allocated $5 million.
2 Assessment of Project Risks Associated with Key Engineering Projects (Report No. 912-2010, May 14, 2010).

3 In May 2009, the Office of Security Strategy and Special Operations was merged into the Amtrak Police

Department.

                                                     3
                          Amtrak Office of Inspector General
                 Fewer Security Improvements than Anticipated Will Be
                   Made and Majority of Projects Are Not Complete
                          Report No. 914-2010, June 16, 2011


solutions to improve passenger safety. The Office of Strategic Security and Special
Operations was in charge of corporate security at this time.

Since 2005, Amtrak has contracted with several other entities to develop and implement
a range of security solutions. Based on these efforts and guidance from DHS, Amtrak’s
Office of Security Strategy and Special Operations produced a comprehensive security
roadmap in 2008 that addressed deterrence, detection, prevention, response, and
recovery priorities. These priorities were translated into the following initiatives:

   Planning and Assessments—Assessments and analytical tools to mitigate Amtrak’s
   security risks.

   Communications and Situational Awareness—Solutions to enhance Amtrak’s
   capabilities to plan for and respond to potential acts of terrorism and related
   incidents.

   Infrastructure Protection—Strategies to create setbacks consistent with federal
   standards for protection against vehicle-borne and improvised explosive devices
   and minimizing unauthorized access to assets; and installation of protective
   bollards, high-security fencing, closed-circuit television systems, blast
   curtains/Mylar film protection, and airborne particulate detection systems.

   Training and Public Awareness— Activities to familiarize Amtrak employees,
   customers, and stakeholders with security issues and Amtrak’s security policies and
   programs.

   Exercises—Activities to test security initiatives, ensure compliance with security
   standards, and provide opportunities to enhance policies and programs.

To address these priorities, in 2010 APD developed a program management system,
called the “Quilt,” to assist managers in deciding which security improvement projects
should be funded at each asset. Assets (stations) with high criticality were programmed
for a higher level of security improvements, while stations with low ridership or less
criticality were programmed for fewer security improvements.




                                            4
                          Amtrak Office of Inspector General
                 Fewer Security Improvements than Anticipated Will Be
                   Made and Majority of Projects Are Not Complete
                          Report No. 914-2010, June 16, 2011


The grant agreement allocated $446 million for security projects including life safety
improvements. Approximately $196.1 million was allocated for security projects and
about $250 million for life safety improvements. This report addresses the $196.1
million allocated for security projects.

Prior to May 2009, the Office of Security Strategy and Special Operations managed the
ARRA police and security program. In May 2009, this office was merged into the
Amtrak Police Department and the newly formed Corporate Security Division became
responsible for managing the ARRA police and security program. Prior to receiving
ARRA funds, security improvement projects were funded under TSGP. Since 2005,
Amtrak Police and Security has received approximately $100 million in TSGP funding.


Objective

Our objective was to review ARRA-funded police and security projects to determine the
extent to which planned security improvements were achieved. This is the second in a
series of reports on Amtrak’s ARRA program (see footnote 2). We also plan to issue a
report on the status of ARRA-funded engineering projects.




                                            5
                          Amtrak Office of Inspector General
                 Fewer Security Improvements than Anticipated Will Be
                   Made and Majority of Projects Are Not Complete
                          Report No. 914-2010, June 16, 2011




FINDING AND RECOMMENDATION


FEWER SECURITY IMPROVEMENTS THAN PLANNED

ARRA funding enabled Amtrak to address some security risks, but fewer security
improvements will be made using ARRA funds than originally planned and budgeted.
ARRA funding for police and security projects was reduced by more than half, from
$196 million to $95 million. This was primarily because the grant language drove
project selection toward projects that could be completed by the February 17, 2011,
deadline, and bids were significantly higher than budgeted amounts for some projects.
APD reported that 13 of the 34 projects were complete and about $50 million (53
percent) of the $95 million in funding for police and security projects had been spent as
of February 28, 2011. Based on our prior recommendation, the grant agreement was
amended in August 2010 to less restrictive language regarding conditions for
requesting a waiver to extend project completion beyond the grant deadline. APD
requested and received a waiver from FRA to extend the deadline from 2 to 6 months
for 21 projects; as a result, over $41 million was put to better use because Amtrak did
not have to take actions that could increase the risk of waste and efficiency.


Reprogramming of Funds Significantly
Reduced Funding for Security Improvements

The decrease in funding resulted in 32 projects being canceled, and the budget and
scope of work for 17 additional projects was reduced. The Police Department spent $1.7
million on the canceled projects. APD participated with other Amtrak departments, in a
Finance Department ARRA review process, to identify projects that were at risk of not
being completed by the February 17, 2011 deadline. The purpose of the review process
was to reprogram funds to other priorities selected by Amtrak leadership where the
funds could be spent by the deadline. These reprogramming decisions were made
before it was decided that waivers could be obtained to extend project completion
beyond the February 17, 2011, deadline.

Table 1 shows the decrease in funding for police and security projects and the resulting
differences in funding:




                                            6
                           Amtrak Office of Inspector General
                  Fewer Security Improvements than Anticipated Will Be
                    Made and Majority of Projects Are Not Complete
                           Report No. 914-2010, June 16, 2011




              Table 1: Changes to Police and Security Funding
                                       (dollars in millions)

                                                   Number of                Funding
          Category                                 projects
          Original scope                                       67                       $196.1
          Projects canceled                                    33        ($49.1)
          Projects budget reduced                              16         (82.2)
          Projects budget increased                            17           30.3
          Project with no change in budget                      1
          Final scope                                          34                        $95.1
         Source: OIG analysis of Amtrak Police Department and Finance Department data

The canceled projects consisted of planned security improvements at rail stations,
maintenance facilities, and access to bridges and tunnels.

APD planned to make security improvements at 24 rail stations. Examples of these
improvements included (1) the installation of bollards around the perimeter of the
stations to provide greater standoff protection; (2) installation of surveillance cameras
that would be connected through an integrated video management system; (3)
installation of airborne particulate-detection systems; and (4) development of a public
awareness systems to warn of dangers and screen passengers for chemical, biological,
radiological, or nuclear explosives. According to Police Department officials, projects at
12 stations with an estimated budget of $28.7 million were canceled, as follows:

   Projects at seven stations in the West with a budget of $16.8 million were canceled
   because Amtrak did not own the stations and negotiations with the station landlords
   were not proceeding quickly enough to enable the security improvements to be
   completed by February 17, 2011.

   Projects at four stations in the Northeast with a budget of $9.4 million were canceled
   because an agreement could not be negotiated with the property management at
   three stations to enable the projects to be completed by the deadline and, at another
   station, because of archeological and state historic preservation requirements.

   A project at one station in the Midwest with a budget of $2.5 million was canceled
   because agreements could not be reached with station landlords to enable projects to
   be completed by February 17, 2011.




                                                   7
                          Amtrak Office of Inspector General
                 Fewer Security Improvements than Anticipated Will Be
                   Made and Majority of Projects Are Not Complete
                          Report No. 914-2010, June 16, 2011


APD initially planned 18 projects to improve security around access to bridges and
tunnels. These improvements included installing hardware and alarm systems, high-
security fencing, surveillance cameras, and airborne particulate-detection systems.
However, 13 of these projects with an estimated budget of $14.5 million were canceled.
According to Police Department officials, two of these projects were canceled because
the bridges were scheduled to be replaced within 5 years. APD plans to include security
improvements when the bridges are eventually replaced. The remaining eleven projects
were canceled because the bids far exceeded the budget and the limited availability of
force protection staff and track time to complete the projects. For example, the Police
and Security budget for security improvements around a bridge in the New York
Division was $1.6 million, but the bids ranged from $2.8 million to $4.8 million. APD
officials believed the bids were unreasonable and canceled the project.

Finally, APD also planned projects to improve security around nine maintenance
facilities. These improvements included installing hardware and alarm systems, high-
security fencing, surveillance cameras, and airborne particulate-detection systems.
However, five of the projects, with an estimated budget of $4.8 million were canceled
because they could not be completed by the ARRA deadline due to space constraints for
additional construction workers based on other ARRA engineering projects at these
facilities.

APD spent approximately $1.7 million on the preliminary design for 30 projects that
were canceled. For example, approximately $399,000 was spent on project design for
security improvements at another bridge in the New York Division, and approximately
$113,000 on project design for security improvements at bridge in the Midwest Division.
APD officials stated that a 30-percent design was received for all the canceled projects,
which can be used if the projects are funded in the future. These funds are at risk of
being wasted if projects are not completed.


Projects Reduced in Scope

The budget for 16 security improvement projects was reduced by about $82.2 million.
National projects—whose scope affected a wide range of employees or locations—
accounted for approximately $71.1 million (86 percent) of this decrease. The remaining
$11.1 million reduction occurred in projects to improve security at specific stations or
around bridges and tunnels.




                                            8
                           Amtrak Office of Inspector General
                  Fewer Security Improvements than Anticipated Will Be
                    Made and Majority of Projects Are Not Complete
                           Report No. 914-2010, June 16, 2011


In April 2009, the Police Department developed a $51 million ARRA project to provide
a video-based intrusion-detection system along the station perimeter and rail track
leading to two stations in the Northeast, one station in the Midwest, and one station in
the West. However, the budget was reduced to only about $5 million (10 percent of the
original amount) over concern that the scope of the project was too large, the project
could not be completed by the deadline, and the future operational and maintenance
cost would be cost prohibitive. As a result of these reductions, the project will now
provide a video-based intrusion-detection system along the rail track leading to only
one station in the northeast; it will also consolidate this station’s closed-circuit television
systems.

In another case, the Police Department planned a $27-million project known as
Pantheon. Its purpose was to provide a set of technological solutions to enhance
security in the rail environment. The project originally consisted of the following three
components:

   Atlas—conducting engineering assessments of structural designs for stations, rail
   structures, and tunnels to identify the risks of catastrophic consequences from a
   terrorist attack;

   Nanite—using technology to monitor concrete for structural damage; and

   Nemesis—designing and pilot-testing deployment of a nuclear- and radiological-
   detection network at stations and on luggage cars, to prevent exploitation of
   intercity rail as a means of delivering a weapon.

The project was envisioned to cover 30 to 40 locations and about 230 linear miles of
track, depending on design and configuration.

In February 2010, the Police Department reduced the project budget by $10 million and
the Nanite component was eliminated and in August 2010, the budget was reduced by
another $4 million by eliminating the Nemesis component. According to APD, these
components were eliminated because they involved experimental technologies that
were not developing as fast as anticipated. As a result, the project will now provide
single point of failure assessment for 39 locations that will be used to determine
hardening techniques at these locations.




                                               9
                            Amtrak Office of Inspector General
                   Fewer Security Improvements than Anticipated Will Be
                     Made and Majority of Projects Are Not Complete
                            Report No. 914-2010, June 16, 2011




Finally, the budget for security improvement projects at eight stations was decreased by
$8.9 million. For example, one New England Division station originally had a budget of
$2.4 million to install blast curtains; Mylar; bollards and fencing; security cameras;
airborne particulate detection systems; heating, ventilation, and air conditioning
analysis mitigation; and pedestrian flow modeling. According to APD officials, the
project’s scope was reduced because the bids were significantly higher than the budget.
The bids ranged from $4 million to $4.5 million. In August 2010, the APD reduced the
project’s scope to the installation of security cameras and adjusted the budget to
$550,000.


Most Police and Security Projects
Not Completed by Deadline

APD data shows that 13 police and security projects with a budget of $21.6 million were
completed by February 17, 2011. However, the scope of many of these projects was
significantly reduced to enable the projects to be completed by the deadline. Between
December 2010 and February 2011, as mentioned, the APD requested and received
waivers from FRA to extend the deadline from 2 to 6 months for the remaining 21
projects. Project completion dates were extended primarily because of delays in
awarding contracts due to higher than anticipated bids and various issues that arose
during construction.

As seen in Table 2, Amtrak Police Department reports spending $50.3 million or 53
percent of the budget for police and security projects as of February 28, 2011. Finance
Department officials noted that actual expenditures will be higher because some
projects were completed in February and Amtrak has not yet been billed for the work.



Table 2: Status of Police and Security Projects as of February 28, 2011
                                         (dollars in millions)
                                        Number of                        Reported Remaining
      Project category                    projects        Budget     Expendituresa   funds
      Completed                                 13         $21.6             $18.1     $3.5
      Waiver to extend deadline                 21          73.5              32.0     41.5
      Total                                     34         $95.1             $50.1    $45.0
      Source: OIG analysis of Amtrak Police Department and Finance Department data

           a
      Note: Expenditures does not include project costs in the work in process account as of February 28, 2011.



                                                     10
                             Amtrak Office of Inspector General
                    Fewer Security Improvements than Anticipated Will Be
                      Made and Majority of Projects Are Not Complete
                             Report No. 914-2010, June 16, 2011




Although 13 projects were competed by the ARRA deadline, the scope of nine of these
was reduced, enabling them to be completed by the deadline.

Two examples illustrate how projects were reduced in scope to meet the deadline. At
stations in the Midwest and New England Divisions, plans had been made to spend
$2.4 million to $2.5 million to improve security. This would have entailed installing
blast curtains, bollards, airborne particulate-detection system—and signs to increase
public awareness in the event of a terrorist attack. After cutting funding to a total of
$250,000-$500,000 per project, only signs were installed at the station in the Midwest
Division and security cameras at the station in New England Division.


Waivers to Extend Completion Date Received for Many Projects

Between November 2010 and February 2011, the APD Department requested and
received waivers from FRA to extend the completion date for 21 projects that could not
be completed by the grant deadline. As a result, $41.5 million in funding will be put to
better use because Amtrak did not have to take actions that could increase the risk of
waste and efficiency. As mentioned, according to APD, estimated completion dates for
projects were extended largely due to issues that arose during construction. Three
examples of projects with approved deadline waivers and extended completion dates
follow.

    Security Improvements at Mid-Atlantic Division Station— This project was delayed
    because of an issue that arose during construction. In January 2011, APD was notified
    that the existing door locks and card readers were not compatible with new
    equipment that had been installed and that some hardware for the closed-circuit
    television was missing. As result, the project completion date was extended by 2
    months to correct the problems. This project has a budget of $2,025,000; through
    February 28, 2011, a total of $1,245,074 had been spent (61 percent).

    Security Improvements at New England Division Station— This project was initially
    delayed because contractor bids were much higher than the authorized budget. In
    May 2010, APD awarded the work to a contractor having an open purchase order.4
    However, the project was further delayed in January 2011 when the contractor


4An open purchase order is an order that has been issued to a contractor against which purchases can be
made for a specific time period.

                                                  11
                          Amtrak Office of Inspector General
                 Fewer Security Improvements than Anticipated Will Be
                   Made and Majority of Projects Are Not Complete
                          Report No. 914-2010, June 16, 2011




  determined that the electrical power was deemed insufficient to support the security
  cameras on the platforms and in the station, and that additional material had to be
  purchased. The project completion date was extended by 3 months. The project’s
  budget is $1,150,000, of which $816,473 had been spent through February 28, 2011 (71
  percent).

  Security Improvements at Mid-Atlantic Maintenance Facility— The project was initially
  delayed 5 months because it took longer than expected to negotiate a contract. After
  construction started, Amtrak’s in-house workforce began evaluating the work it
  could perform. It took 4 months to resolve this issue which resulted in a revised
  construction schedule that extended the completion date 4 months. The project has a
  budget of $5,075,000; the amount spent through February 28, 2011, was $1,966,918 (39
  percent).



CONCLUSIONS

ARRA funding enabled the Amtrak Police Department to address some security risks,
but significantly fewer security improvements will be made than originally planned
and budgeted. The initial focus on projects that could be completed by the ARRA grant
deadline resulted in significant reductions in funding for Police and Security projects.
Amtrak senior management decided toward the end of the grant agreement period to
request waivers to extend the estimated completion for projects that were not going to
be finished by the grant deadline. As a result, some funds are at risk of being wasted to
the extent that designs for canceled projects are not used in the future.



RECOMMENDATION

To avoid wasting $1.7 million spent on canceled projects, we recommend that the Vice
President/Chief of Police give priority to canceled ARRA projects in selecting projects to
fund with Department of Homeland Security grant funding.




                                            12
                          Amtrak Office of Inspector General
                 Fewer Security Improvements than Anticipated Will Be
                   Made and Majority of Projects Are Not Complete
                          Report No. 914-2010, June 16, 2011




MANAGEMENT COMMENTS AND OIG ANALYSIS

In commenting on a draft of this report, Amtrak’s Vice President and Chief of Police
agreed with our recommendation and indicated that initial steps have been taken to
utilize the designs from some canceled security projects. If implemented, Amtrak’s cited
actions will be responsive to our recommendation. Technical comments were also
provided and included in this report where appropriate. Amtrak’s comments are
reprinted in Appendix I.




                                          13
          Amtrak Office of Inspector General
Fewer Security Improvements than Anticipated Will Be
  Made and Majority of Projects Are Not Complete
         Report No. 914-2010, June 16, 2011



                     Appendix I

      COMMENTS FROM AMTRAK’S
 VICE PRESIDENT AND CHIEF OF POLICE




                         14
                          Amtrak Office of Inspector General
                Fewer Security Improvements than Anticipated Will Be
                  Made and Majority of Projects Are Not Complete
                         Report No. 914-2010, June 16, 2011




                                      Appendix II

                         SCOPE AND METHODOLOGY

This audit covers 34 ARRA-funded police and security projects with a budget of $95.1
million (see Appendix III for a complete list of projects). We performed this audit from
August 2010 through April 2011, in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform our work to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on the objectives. We believe that the evidence obtained during
this audit provides a reasonable basis for our findings and conclusions based on our
audit objectives.

To determine the extent to which planned security improvement were achieved, we
analyzed changes to the ARRA-funded police and security projects from the time the
grant agreement was signed in March 2009 through December 2010. We interviewed
officials in Amtrak’s Police Department to identify reasons why projects were canceled,
as well as why project budgets increased or decreased. We obtained data from the
Police Department on funds spent on canceled projects. We reviewed the project status
reports for each project, and the documentation regarding Amtrak Police Department
waiver requests to extend the completion date for projects. We also interviewed project
managers to identify reasons why projects could not be completed by the ARRA
deadline. We obtained data on actual expenditures by project as of February 28, 2011,
from the Amtrak Finance Department.


Use of Computer-Processed Data

We utilized computer-processed reports to obtain budget and expenditure data on all
Police and Security projects. These data represent the actual expenditures as reported to
FRA. We did not validate these numbers but relied on the data based on a general and
application review of financial systems performance as part of the financial statement
audit performed by Amtrak’s external auditors.




                                           15
                           Amtrak Office of Inspector General
                 Fewer Security Improvements than Anticipated Will Be
                   Made and Majority of Projects Are Not Complete
                          Report No. 914-2010, June 16, 2011




Internal Controls

We reviewed Amtrak Police Department’s internal controls related to project
budgeting, planning, and implementation. We evaluated these controls by determining
the status of all projects and the process for making changes to project scope and
budget.


Prior Coverage

Assessment of Project Risks Associated with Key Engineering Projects (Report No. 912-2010,
May 14, 2010).

Opportunities and Challenges Facing Amtrak in FY 2011 and Beyond, Statement of Ted
Alves, Inspector General, National Railroad Passenger Corporation, before the
Subcommittee on Transportation, Housing and Urban Development, and Related
Agencies, Committee on Appropriations, United States Senate, April 29, 2010.




                                            16
                            Amtrak Office of Inspector General
                  Fewer Security Improvements than Anticipated Will Be
                    Made and Majority of Projects Are Not Complete
                           Report No. 914-2010, June 16, 2011




                                        Appendix III

            ARRA-FUNDED POLICE AND SECURITY PROJECTS

The following table shows project budgets, reported expenditures, and whether the project was
completed or a waiver granted to extend the completion date.

      Table 3: Status of Police and Security Projects as of February 28, 2011
                                                                           Status
                                                                                Waiver to
                                        Budget     Expenditures                   extend
 Project                                 ($000)          ($000)     Completed deadline
 Pantheon                               $13,000         $11,574          X
 Police equipment modernization          12,950           10,157                      X
 Project management                       7,859            1,658                      X
 Security improvements—Northeast
 Division station                         6,000            1,850                      X
 Virtual fence, Mid-Atlantic Division                      1,946
 station                                  5,990                                       X
 Security improvements, Mid-
 Atlantic maintenance facility            5,075            1,967                      X
 Security improvements—Mid-
 Atlantic maintenance facility            4,066            1,847                      X
 Enhanced employee ID card                4,000            1,141                      X
 Secure network and incident
 management                               4,000              541                      X
 Canine team training                     3,900            2,114                      X
 Security improvements—New
 England Division maintenance
 facility                                 3,580              192                      X
 Security improvements—Mid-
 Atlantic Division station                3,315            2,139                      X
 Security improvements—Mid-
 Atlantic maintenance facility            2,705                                       X
                                                           1,175
 Security improvements—Northeast
 Division station                         2,249            1,290                      X
 Security improvements—Mid-
 Atlantic station                         2,025            1,245                      X
 Supervisory Control and Data
 Acquisition                              1,808              764         X
 Security improvements—Mid-
 Atlantic Division station                1,300            1,581         X

                                              17
                              Amtrak Office of Inspector General
                    Fewer Security Improvements than Anticipated Will Be
                      Made and Majority of Projects Are Not Complete
                             Report No. 914-2010, June 16, 2011

                                                                                Status
                                                                                     Waiver to
                                           Budget      Expenditures                    extend
    Project                                 ($000)           ($000)      Completed deadline
    Security improvements—Mid-
    Atlantic Division station                1,190              1,056         X
    Security improvements—Traction
    Power Office                             1,155                509                        X
    Security improvements—New
    England Division station                 1,150                816                        X
    Security improvements—Southern
    Division maintenance facility; and
    Western Division maintenance
    facility                                 1,100                 31                        X
    Security improvements—New
    England Division station                   950                458                        X
    Security improvements— CNOCa
    and CETCa facilities                       905                436         X
    Security improvements—Mid-
    Atlantic Division bridge                   855                388                        X
    Security improvements—Northeast
    Division bridge                            800                738         X
    Security improvements—Mid-
    Atlantic Division bridge                   580                537                        X
    Security improvements—CETCa
    facility                                   577                609         X
    Security improvements—Mid-
    Atlantic Division station                  559                635         X
    Security improvements—New
    England Division station                   550                425         X
    Security improvements—Northeast
    Division station                           250
                                                                  238         X
    Security improvements—Midwest
    Division station                           250                 13         X
    Security improvements—Midwest
    Division station                           250                 27         X
    Security improvements—CETCa
    facility                                    50                 17         X
    Security improvements—Northeast
    Division bridge                             50                 3                        X
      Total                               $95,043c           $50,117          13            21
a
  CNOC—Consolidated National Operations Center
b
  CETC—Centralized Electrification and Traffic Control
c
  $50,000 from a canceled project had not been reallocated to another project when we completed our
work
Source: Amtrak Police Department and Finance Department.
                                                  18
                  Amtrak Office of Inspector General
        Fewer Security Improvements than Anticipated Will Be
          Made and Majority of Projects Are Not Complete
                 Report No. 914-2010, June 16, 2011




                              Appendix IV

                         ABBREVIATIONS

APD    Amtrak Police Department

ARRA   American Recovery and Reinvestment Act of 2009

DHS    Department of Homeland Security

FRA    Federal Railroad Administration

OIG    Office of Inspector General

TSGP   Transportation Security Grant Program




                                     19
                          Amtrak Office of Inspector General
                Fewer Security Improvements than Anticipated Will Be
                  Made and Majority of Projects Are Not Complete
                         Report No. 914-2010, June 16, 2011



                                    Appendix V


                             OIG TEAM MEMBERS

This report was prepared and the review conducted under the direction of Michael
Kennedy, Senior Director, Audit. Staff members who conducted the audit and/or
contributed to the report include:

David Burrell

Michael P. Fruitman

John Weinle

Roy Wiegand




                                         20
                        Amtrak Office of Inspector General
              Fewer Security Improvements than Anticipated Will Be
                Made and Majority of Projects Are Not Complete
                       Report No. 914-2010, June 16, 2011




           OIG MISSION AND CONTACT INFORMATION

Amtrak OIG’s Mission       Amtrak OIG’s mission is to

                              conduct and supervise independent and objective audits,
                               inspections, evaluations, and investigations relating to
                               Amtrak programs and operations;

                              promote economy, effectiveness, and efficiency within
                               Amtrak;

                              prevent and detect fraud, waste, and abuse in Amtrak's
                               programs and operations;

                              review security and safety policies and programs; and

                              review and make recommendations regarding existing and
                               proposed legislation and regulations relating to Amtrak's
                               programs and operations.




Obtaining Copies of OIG    Available at our website: www.amtrakoig.gov
Reports and Testimony
To Report Fraud, Waste,    Report suspicious or illegal activities to the OIG Hotline (you
or Abuse                   can remain anonymous):

                           Web:      www.amtrakoig.gov/hotline
                           Phone: 800-468-5469
Congressional Affairs &    E. Bret Coulson
Public Relations           Congressional Affairs and Public Relations

                           Mail   Amtrak OIG
                                  10 G Street, N.E., 3W-300
                                  Washington, DC 20002

                           Phone: 202-906-4134
                           Email: bret.coulson@amtrakoig.gov



                                         21
